LISA S. BLATT
(202) 434-5050
lbatt@wc.com

September 16, 2020

VIA ELECTRONIC FILING
Honorable Scott S. Harris
Clerk of Court
Supreme Court of the United States
One First Street, NE
Washington, DC 20543
Re:

Bose v. Bea, et al., No. 20-216 (U.S.)

Dear Mr. Harris:
The Court docketed the petition in the above-referenced case on August 25, 2020. The
briefs in opposition are due September 24, 2020. Pursuant to Supreme Court Rules 15.3 and 30.4,
Respondent Rhodes College respectfully requests a 62-day extension, until November 25, 2020,
to file its brief in opposition. Counsel of Record for the Petitioner has consented to this extension
of time, and requested that the extension be 62 days, rather than 60 days, so that Petitioner’s period
for reply does not begin during the Thanksgiving holidays.
Respondents recently retained Williams & Connolly as their representative in the Supreme
Court. I will be serving as counsel of record. The extension of time is necessary because of the
pre-existing commitments of myself and my co-counsel, including:
(1) an oral argument in Manfredo Salinas v. United States Railroad Retirement Board, No.
19-199 (U.S.), on November 2, 2020;
(2) an oral argument in American Hospital Association, et al. v. Azar, No. 20-5193
(CADC), on October 15, 2020;
(3) a petition for certiorari that we will file in late September;
(4) a reply brief in support of certiorari in Carr, et al. v. Saul, Commissioner of Social
Security, No. 19-1442 (U.S.), expected to be due on October 14, 2020;

Honorable Scott S. Harris
September 16, 2020
Page 2

(5) a reply brief in support of certiorari in Mahanoy Area School District v. B.L., No. 20255 (U.S.), expected to be due on October 15, 2020;
(6) a reply brief support of certiorari in Jack Daniel’s Properties, Inc. v. VIP Products,
LLC, expected to be due November 5, 2020;
(7) a reply brief in Harbor Breeze Corp. v. Newport Landing Sportfishing, No. 19-56138
(CA9), due on October 19, 2020;
(8) an opening brief in Seaview Trading, LLC, AGK Investments, LLC, Tax Matters Partner
v. Commissioner of Internal Revenue, No. 20-72416 (CA9), due on November 2, 2020;
(9) an opening brief in In re: Google LLC, No. 20-1939 (CA Fed.), due on November 9,
2020;
(10) a brief in opposition to summary judgment in Network-1 Technologies, Inc. v. Google
LLC et al., No. 14-2396 (S.D.N.Y.), due on October 16, 2020; and
(11) a reply brief in Philip Morris USA, Inc. v. Azar, No. 20-1181 (D.D.C.) due on
November 18, 2020.
In addition, counsel has been contacted by an amicus seeking consent to filing a brief in
support of certiorari in this case, and additional time is warranted to consider amicus arguments.
Sincerely,
/s/ Lisa Blatt
Lisa Blatt

cc:

Allon Kedem, Counsel of Record for Petitioner

